No. 20-06263
IN THE
SUPREME COURT OF THE UNITED STATES
HAIDER SALAH ABDULRAZZAK

PETITIONER

VS.
BRENT FLUKE et. al,

RESPONDANTS

PROFF OF SERVICE
I, Haider Salah Abdulrazzak. do swear or declare that on this date,
&______,
2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION TO
PROCEED IN FORMA PAUPERIS and PETITION FOR REHEARING DENIAL OF
PETITION FOR CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attv. Quincy R, Kierstad, SD Asst. Attorney General. 1302 E. Highway 14. Suite 1.
Pierre. SD 57501-8501 (Attorney of records for Respondents).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on

?-> a * \

wy

,2021.

(Signature)
Haider Salah Abdulrazzak
Petitioner/Pro se

